                                   STATEMENT BY

                              JOHNNIE E. FRAZIER
                             INSPECTOR GENERAL
                       U.S. DEPARTMENT OF COMMERCE

                          BEFORE THE
              COMMITTEE ON GOVERNMENT REFORM
       SUBCOMMITTEE ON TECHNOLOGY, INFORMATION POLICY,
         INTERGOVERNMENTAL RELATIONS AND THE CENSUS
            UNITED STATES HOUSE OF REPRESENTATIVES

                                     JUNE 24, 2003


Mr. Chairman and members of the subcommittee, I appreciate the opportunity to appear

today to provide the Inspector General’s (IG’s) perspective on information technology

(IT) security in the Department of Commerce.



Commerce’s IT systems and the data they process and store are among the most critical

assets of virtually all the Department’s line offices and operating units. For example,

satellite, radar, and other weather forecasting data and systems managed by the National

Oceanic and Atmospheric Administration (NOAA) are critical to protecting lives and

property; export license data compiled by the Bureau of Industry and Security (BIS) is

essential to controlling the export of dual-use commodities to foreign governments and

entities; economic indicator data developed by the Economics and Statistics

Administration (ESA) has significant policy-making and commercial value and may

affect the movement of commodity and financial markets; and data of the U.S. Patent and

Trademark Office (USPTO) is essential to administering national and international laws

relating to patents and trademarks, promoting industrial and technical progress in the
United States, and strengthening the national economy. Clearly, maintaining the security

of Department of Commerce data and systems is of overriding importance to both the

agency and the nation. Loss of or serious damage to any one of the Department’s critical

systems can have far-reaching, long-term, and possibly devastating impacts.

Furthermore, without effective IT security, the Department’s electronic government

initiatives cannot be successful.



State of IT Security at the Department of Commerce

When I first testified on IT security two years ago, I had few favorable observations to

share. The Department was striving to improve IT security and make it an integral

component of Commerce’s business operations. However, our work, augmented at the

time by GAO’s penetration testing of information systems and networks based in

Commerce headquarters, revealed pervasive IT security weaknesses that placed sensitive

systems at serious risk. Weaknesses Department-wide prompted us to identify IT

security as a top management challenge. Indeed, Commerce exhibited the six common

government-wide IT security weaknesses identified by the Office of Management and

Budget (OMB) in its FY 2001 report to Congress on government information security

reform:



   1. Lack of agency senior management attention to IT security.

   2. Poor security education and awareness.

   3. Failure to fully fund and integrate security into its capital planning and investment
      control process.

   4. Failure to ensure that contractor services are adequately secure.



                                             2
    5. Lack of detecting, reporting, and sharing information on vulnerabilities.

    6. Lack of IT security performance measures.



OMB’s FY 2002 report to Congress on the state of IT security in the federal government,

which was submitted in May, noted that while efforts are still warranted across these six

areas, progress is clearly evident, and the federal government is headed in the right

direction. I am pleased to report today that Commerce, too, has made progress and is

headed in the right direction. But the Department must overcome a history of neglect. In

his April testimony before this subcommittee, the Department’s CIO, Thomas N. Pyke,

aptly stated that Commerce has been “coming from behind” as it strives to implement a

comprehensive IT security program. Although significant strides have been made,

implementing a comprehensive program to enhance IT security continues to be a top

management challenge. As we advised, the Department reported IT security as a material

weakness in its Accountability Report in both FY 2001 and FY 2002, and we believe it

should continue to be reported as such until Commerce systems that are part of the

nation’s critical infrastructure (national critical systems), as well as those that are mission

critical, have been certified and accredited.1



USPTO must also address serious IT security issues. As a performance-based

organization, USPTO has been submitting its IT security review separate from that of the

Department of Commerce. It is also undertaking actions separate from the Department to


1
  Certification denotes that the system’s security controls have been tested and found to be adequate;
accreditation signifies that the responsible senior manager has formally authorized its operation and accepts
any residual risk.



                                                     3
manage IT security, so we reviewed USPTO’s IT security program separately in FY

2002. Like the rest of the Department, USPTO is making progress in IT security, but it,

too, faces significant challenges. At our urging, USPTO, like the Department, reported

IT security as a material weakness in its FY 2002 Accountability Report, and we believe

it should continue to be reported as such until all USPTO’s mission-critical systems are

accredited. (We note that USPTO does not have any IT assets identified as part of the

nation’s critical infrastructure.)



The Six Areas of IT Security Weakness Reported by OMB as They Apply to

Commerce

I would like now to address the six areas of weakness reported by OMB as they apply to

Commerce, covering their status before GISRA was enacted, the progress that has been

made since that time, and the actions Commerce is taking to address its deficiencies. I

will then discuss how we perform our evaluations and how our objectivity and

independence bring unique insight to this important area.



1. Agency senior management attention to IT security.

Before GISRA was enacted, IT security was not a high priority for senior officials in the

Department. This area of responsibility was commonly regarded as belonging solely to

the CIOs, who did not treat it as a priority either. And this lack of concern and attention

showed. Reflecting a history of neglect, Commerce’s IT security program was

incomplete, portions that existed were out-of-date, and the program was not enforced.

The majority of the Department’s IT systems had not been assessed for risk, did not have




                                             4
security plans, and were neither certified nor accredited. This meant that, more often

than not, security controls had not been tested, systems were operating without required

management authorization, and management officials lacked an understanding of the

risks their organizations were incurring by permitting their systems to operate.



Since the enactment of GISRA, the Department’s perspective on IT security has changed

completely: senior Department management has become intensely aware of and takes

very seriously its IT security responsibilities. Under GISRA, IT security became the

explicit responsibility of federal agency senior management—the agency head, senior

line managers, and the CIO. GISRA charged the Secretary with ensuring the security of

information and information systems by promoting security as an integral component of

the agency’s business operations. Senior Commerce managers were given specific

responsibility for protecting the security of operations and assets they control.



As we reported in our FY 2001 independent evaluation, in the summer of 2001 the

Department began a concerted effort to improve IT security and make it an integral

component of Commerce’s business operations. Specifically, the Secretary of Commerce

directed secretarial officers and heads of operating units to (1) give IT security high

priority, sufficient resources, and their personal attention, and (2) restructure, and thus

strengthen, IT management by having a CIO at each unit who reports to the unit head or

principal deputy and to the Department CIO, and by increasing the unit CIO’s authority

over IT resources. We noted that these actions—if accompanied by continued executive-




                                              5
level attention and adequate resources—were important steps in building a more effective

IT security program.



Our FY 2002 evaluation confirmed that Department-level executive support for IT

security continued. Both the Secretary and Deputy Secretary continued to emphasize to

senior Commerce officials the importance of IT security and senior management’s

responsibility for establishing effective IT security programs in the operating units. They

also continued to stress to senior management their leadership role in correcting the

problems identified by OIG and GAO evaluations. Our FY 2002 GISRA review found

that senior management officials in Commerce’s operating units generally were giving IT

security their personal attention and were working to ensure that employees understood

the responsibilities of their unit’s CIO and program officials, as well as their own

personal responsibility, for IT security.



However, we still found a need for greater senior management attention in both of the

agencies whose IT security programs we reviewed comprehensively in FY 2002the

National Institute of Standards and Technology (NIST) and USPTO. We found that IT

security was not receiving adequate senior management attention, and as a result,

significant weaknesses existed in planning, budgeting, implementation, review, and

oversight. Consequently, we concluded that there had been a lack of follow-through in

carrying out such fundamental responsibilities as:




                                             6
   •   establishing comprehensive IT security policies and procedures;

   •   identifying, assessing, and understanding risks to agency IT assets;

   •   determining IT security needs commensurate with the levels of risk;

   •   planning, implementing, and testing controls that adequately address risk;

   •   continually monitoring and evaluating policy and effectiveness of information
       security practices; and

   •   developing a capital planning and investment control process and integrating
       IT security into it.



Since the time of these most recent evaluations, the heads of both of these agencies have

stated their commitment to protecting their information assets. In a memorandum to his

senior management team, the director of NIST acknowledged his responsibility for the

security of NIST’s data and IT systems, and directed all members of NIST’s upper

management to give IT security high priority and to ensure that NIST’s policies,

procedures, and operational environment are exemplary. NIST has also restructured the

CIO’s office with the goal of improving its effectiveness.



Regarding USPTO, in response to our evaluation, the Under Secretary of Commerce for

Intellectual Property and Director of USPTO began to devote additional attention and

resources to this area. In addition to identifying IT security as a material weakness in its

FY 2002 Accountability Report, USPTO further demonstrated its commitment to

improving IT security as part of a new corporate strategy presented in The 21st Century

Strategic Plan. Referring to the OIG evaluation, the plan states that USPTO is not in

compliance with the law and that because IT security has not yet become an integral part




                                              7
of USPTO’s business operations, fundamental IT security responsibilities are frequently

not carried out. The plan concludes that the implication of not being compliant with

GISRA is that neither internal nor external customers can trust USPTO’s automated

information systems. It further presents tasks, milestones, and a schedule for correcting

this problem that are consistent with our recommendations.



2. Security education and awareness.

In our FY 2001 GISRA evaluation, we reported that security training was not conducted

on a rigorous or ongoing basis, and none of the operating units was able to give us the

information we requested about the number of employees who had received security

training or the cost of providing such training. Our FY 2002 evaluation, however, found

that significant progress had been made in providing awareness training to IT users. At

the direction of the Department’s CIO, operating units had provided such training to all

employees and contractor personnel either through programs of their own or via web-

based training made available by the CIO. The operating units tracked and reported this

training to the Commerce CIO and must continue to do so every year.



Operating units are responsible for identifying positions that require specialized IT

security training as well as the specific training requirements for those positions. We

found that less progress has been made in this area. Training for personnel with

significant IT security responsibilities such as system administrators, IT security officers,

and contracting officers appeared to be inconsistent and incomplete at the units we

reviewed. The Department CIO is addressing this issue by making training more




                                              8
accessible: an enterprise license was acquired for web-based IT security training, which

makes both specialized and annual awareness training available throughout the

Department. In conducting our ongoing independent evaluation this year, we are finding

that some IT security officers still lack a sufficient understanding of their duties and

responsibilities, thus highlighting the need for the Department to continue to focus on

ensuring that specialized security training is provided to those who need it.



In addition, at the end of FY 2002, the Department CIO sponsored and paid for two

important on-site training classes—Principles of Certification and Accreditation, and

Roles and Responsibilities of the Designated Approving Authority. These classes

covered the methodologies NIST is using to update its federal guideline on certification

and accreditation. Although the sessions could not accommodate all personnel who

needed them, they were an important step in addressing a critical training area.



3. Funding and integrating security into Commerce’s capital planning and
   investment control process.

By controlling IT spending decisions, the Department and operating unit CIOs can ensure

that security is planned at the earliest stages of a system’s life cycle. In our FY 2002

independent evaluation, we found that the Department CIO’s review and concurrence are

required for IT investment decisions affecting all major systems, and—with the exception

of NIST—all of the operating units we reviewed (BIS, ITA, NOAA, and NTIA) require

unit CIO concurrence for smaller IT investments.




                                              9
At the Department level, the Commerce Information Technology Review Board

(CITRB), chaired by the CIO,2 was established to support this decision-making function.

The Department CIO, with input from the board, provides recommendations to the

Deputy Secretary and the Office of Budget on the soundness of the planning for each

proposed IT initiative, including the extent to which it addresses Department

requirements for IT security and IT architecture. The board seeks to conduct a status

review, usually once a year, for approved projects. The CIO, in turn, uses these reviews

to recommend whether a project should be continued, modified, or terminated. IT

projects costing more than $10 million that require a contract, as well as selected smaller

projects, must be reviewed by the board in order for the operating unit acquiring the

system to receive a delegation of procurement authority, which is the authority to make

contractual commitments. In his FY 2004 and 2005 budget guidance to the operating

unit CIOs, the Department CIO emphasized that demonstrating effective IT security is an

important factor in the board’s review of budget requests.



NIST began to implement an IT capital planning and investment control process in

FY 2002; however, our evaluation found that investment decisions could still be made

without the review and concurrence of NIST’s acting CIO. In responding to our

evaluation, NIST noted that its capital investment planning process would be fully

implemented in FY 2003, at which time CIO concurrence will be required.




2
 Other members of the board include the Chief Financial Officer and Assistant Secretary for
Administration, who serves as co-chair; Deputy CFO; Deputy CIO; the CIOs from NOAA, Census
Bureau, NIST, ITA, and, on a rotating term basis not to exceed 2 years, two other operating unit




                                                  10
As part of our FY 2002 independent evaluation, we examined the FY 2003 capital asset

plans for 13 major departmental systems—9 of the systems were from NOAA, 2 were

from NTIA, 1 was from NIST, and 1 from BIS—to determine whether each capital asset

plan (1) specified the system’s projected security costs, (2) detailed how funds would be

spent, and (3) adequately described the system’s security requirements. We found that

most plans specified projected security costs, but only a few explained how these funds

would be spent. Although most plans described the IT security activities that need to be

conducted over the system life cycle, some did not detail specific risks and security

controls. We concluded that the operating units need to do a better job of identifying

security risks and controls throughout a system’s life cycle so that security expenditures

can be better developed and justified. The Department CIO is addressing this issue by

providing training in the preparation of capital asset plans and specific guidance for

completing the security and privacy section. As mentioned earlier, IT security is also

given special attention during CITRB reviews.


USPTO carries out its capital asset planning and budgeting process separately from that

of the Department. Our FY 2002 evaluation found that USPTO needed to make

significant improvements in this area. USPTO had not identified security costs for any

individual system in its fiscal year 2002 or 2003 budget submissions. Nor had USPTO

conducted an accurate, thorough analysis of existing security needs and the cost of

satisfying them in order to develop its budget request. The fiscal year 2002-2007 budget

formulation guidance provided by USPTO’s Office of the Chief Information Officer did



CIOs; selected operating unit executives as designated by the CIO; Director for Budget; Director
for Acquisition Management, and Director for Human Resources Management.



                                                    11
not contain instructions for incorporating security costs into budget requests. In response

to this finding, USPTO indicated that the budget system in its CIO office was enhanced

to ensure that IT security costs are tracked for each system, and funding for IT security is

included in each system’s budget plan.



4. Ensuring that contractor services are adequately secure.

This past April, Mark Forman, OMB Administrator for Electronic Government and

Information Technology, testified before this subcommittee on the status of the federal

government’s IT security. While discussing the security of contractor services, he noted

that an issue group had been created to review the problem through the Administration’s

Committee on Executive Branch Information Systems Security of the President’s Critical

Infrastructure Protection Board. The issue group recommended use of a government-

wide security clause, a recommendation currently under review by the Federal

Acquisition Regulatory (FAR) Council.




Of course, the need to safeguard sensitive information and information systems when

contracting for services increases as outsourcing increases because the risk of security

violations by contractorswhether inadvertent or deliberatealso grows. Thus, I share

OMB’s concern about ensuring the security of contractor services and believe a FAR

clause is needed. I am pleased that my office has been able to help address this issue by

having our contracting expert, Karen DePerini, at the invitation of OMB, serve as co-

chair of the issue group cited by Mr. Foreman.




                                             12
Through our FY 2001 independent evaluation, we identified problems with IT security in

IT service contracts, resulting, in part, from a lack of sufficient federal and departmental

policy and guidance to ensure that contract documents for IT services contain adequate

IT security provisions. In FY 2002 we examined this weakness in greater detail: we

reviewed 40 of the Department’s IT service contracts, including some awarded by

USPTO, and found that provisions to safeguard sensitive but unclassified systems and

information were either insufficient or nonexistent. Based on the results of this sample,

we concluded that the majority of IT service contracts throughout the Department lacked

needed IT security provisions. Contracting officers and other acquisition team members

need guidance and training, as well as support from technical experts and program

officials, to ensure that they prepare and administer IT service contracts in a way that

makes clear and enforceable the contractor’s responsibility and accountability for

safeguarding the government’s information assets.



We recommended that the Department of Commerce’s Chief Financial Officer and

Assistant Secretary for Administration take the necessary actions to ensure that all

contracting offices within Commerce include adequate IT security provisions in all IT

service contracts to protect the Department’s sensitive IT information and assets.

Specifically, we urged the Department to establish standard contract provisions for

safeguarding the security of unclassified systems and to disseminate clear, detailed policy

guidance for acquiring these systems and services.



We further recommended that such a policy require contracting offices—with assistance

from the Department’s Office of the CIO—to assess the IT security risk associated with


                                             13
the proposed service or system during the acquisition planning phases; identify and

include appropriate IT security requirements in specifications and work statements;

monitor contractor performance to ensure compliance with IT security requirements; and

terminate the contractor’s access to systems and networks once the contract is closed out.

We also advised the Department to review all current contracts and solicitations for IT

services to determine whether IT security provisions should be added to them, even

though such revisions might increase contract costs, and to ensure that all procurement

personnel have appropriate training in IT security.



The Department is in the process of implementing our recommendations. Contract

provisions have been written and are now undergoing departmental review. After the

provisions are approved, Commerce plans to provide appropriate training to acquisition

staff. The Department’s assessment of current contracts found that more than 350 need

modification to address the new security provisions. In January, the Department CIO

issued a new security program policy, which addresses IT security in contracts and

should help ensure that future contracts include appropriate security provisions prior to

being awarded.




5. Detecting, reporting, and sharing information on vulnerabilities.

GISRA requires agencies to have documented procedures for detecting, reporting, and

responding to IT security incidents. In our FY 2001 independent evaluation, we found

that only 4 of 14 operating units—Census, NIST, NOAA, and USPTO—had a formal




                                            14
incident response capability, and that the Department’s policy for reporting IT security

incidents needed to be revised to specify notification of OIG and to define what

constitutes a reportable incident. In FY 2002, the Department established a computer

incident response team to support operating units that did not have their own incident

response capability, thus ensuring coverage of the entire Department. The team will also

be a focal point for obtaining and exchanging best practices and incident response

methodologies.



The Department’s new security program policy includes improved guidance on incident

identification, handling, response, and reporting. It defines the types of incidents that

need to be reported and requires each operating unit to submit its response procedures to

Commerce’s critical infrastructure program manager, located in the Department CIO’s

office, for review and approval. This requirement will help ensure that all units have

documented procedures for reporting security incidents and sharing information about

common vulnerabilities. The policy sets minimum requirements for incident response

capabilities and prescribes the system-level processes and incident-handling procedures

to be performed, including working with OIG investigators and other law enforcement

authorities and reporting incidents to the Federal Computer Incident Response Center

(FedCIRC). It also establishes requirements for monitoring and detecting incidents,

including use of network- and host-based intrusion detection systems, logging tools,

firewalls, and other devices, as well as review of audit logs, trouble reports, and

information provided by intrusion detection tools.




                                             15
As Mr. Pyke recently told the subcommittee, Commerce has established a capability to

transmit IT security alerts Department-wide at any time and to activate Commerce

emergency mobilization plans, as appropriate. To maintain up-to-date corrective patches

for known vulnerabilities, the Department established a patch authentication and

distribution account under the patch management contract awarded by FedCIRC.



6. IT security performance measures.

Although security plans have been required for federal IT systems since the Computer

Security Act of 1987, when I testified two years ago, nearly two-thirds of the

Department’s systems lacked risk assessments, almost half did not have a security plan,

and more than 90 percent were not certified or accredited. These were serious

deficiencies that the Department has since been addressing zealously. The table below

shows the status of these items, based on Department reporting, between FY 2000 and

FY 2003.




           Percent of Systems with Risk Assessments, Security Plans, and
                            Certification/Accreditation*

                                  FY 2000            FY 2001             FY 2002
                                  (percent)          (percent)           (percent)
        Risk Assessments              28                 74                  94

        Security Plans                54                 69                  96
        Systems Certified              8                 48                  77
        and Accredited
        *Table excludes USPTO’s systems.




                                              16
Last fiscal year, the Department CIO set September 30, 2002, as the deadline for having

approved security plans for all general support systems and major applications. In its

fiscal year 2002 GISRA review, the Department reported that of its 609 systems, 94

percent had risk assessments, 96 percent had security plans, and 77 percent were certified

and accredited. OMB has established a goal that by the end of 2003, 80 percent of

federal IT systems shall be certified and accredited. The Department’s goal is to have all

national critical, mission critical, and classified systems certified and accredited by the

end of this fiscal year.



Performance Measures Do Not Tell the Whole Story; Aggressive Schedules May

Actually Weaken the Process

Achieving certification and accreditation for all systems is imperative, and we support the

effort to certify and accredit all systems as soon as possible. Our independent evaluations

suggest, however, that the Department’s aggressive schedule is causing some systems to

be certified and accredited in the absence of adequate risk assessments and security plans

and without rigorous and effective testing, evaluation, and review processes. While a

concerted effort toward certification and accreditation must continue, it is equally critical

that the rigor and integrity of certification and accreditation processes be maintained.

Otherwise, we may have paper security, but lack true security.



Our concern stems from the fact that our 2002 GISRA review, whose fieldwork we

completed in July, found numerous systems operating without required risk assessments,

approved security plans, or certification and accreditation. Moreover, some with




                                             17
approved security plans could provide no evidence that a risk analysis—a prerequisite for

the security plan—had been conducted. Too many operational systems we reviewed had

not been accredited, and many lacked up-to-date security plans and risk assessments.

Those that were accredited frequently lacked evidence of the requisite security testing

and evaluation, thus diminishing the assurance that accreditation is intended to impart.

For example,



   •   NIST had established an ambitious schedule for accrediting all of its systems by

       September 1, 2002. As of July, none of NIST’s 109 operational systems had a

       documented risk assessment or an approved security plan, and only two had

       accreditation. Moreover, the dates by which NIST’s offices were to receive a risk

       assessment methodology had passed, yet the methodology had not been provided.

       All future dates depended on the risk assessments; thus this delay affected the

       entire schedule. We were concerned that this aggressive schedule would not

       permit sufficient analysis, documentation, or review to achieve adequate product

       content or quality or support meaningful certification and accreditation processes.

       To address our concern, NIST stated it would have its CIO review all NIST

       system certifications and accreditations in FY 2003.




   •   At the time of our evaluation of USPTO, 82 percent of USPTO’s 78 operational

       systems lacked documented risk assessments, and the security plans for 30

       percent of those systems were more than 3 years old. None of USPTO’s systems

       had been certified and accredited. In response to our review, USPTO planned to



                                            18
    certify and accredit all high-risk systems by the end of FY 2003 and the remaining

    systems by the end of FY 2004.



•   Security plans were provided for all four of BIS systems, which were generally

    consistent with NIST guidance for content and format, but evidence of a risk

    assessment was provided for only one system. Although BIS considered the plans

    approved, it lacked a formal approval process and thus could not validate the

    approval. None of the systems had undergone security testing and evaluation or

    been certified or accredited.



•   Risk assessments had been performed on the four ITA systems for which we

    requested documentation. ITA provided two security plans that it considered

    approved and two draft plans. However, like BIS, ITA lacked a formal approval

    process. Our review of the two approved plans found them to be generally

    consistent with NIST guidance for content and format but in need of additional

    information on rules for using the systems appropriately; they also did not comply

    with the Department’s password policy. Furthermore, none of the systems had

    undergone security testing and evaluation or been certified or accredited.




•   NOAA’s Office of Atmospheric Research (OAR) and National Marine Fisheries

    Service (NMFS) had performed risk assessments on their systems. With one

    exception, systems belonging to the National Environmental Satellite, Data, and

    Information Service (NESDIS) and National Ocean Service (NOS) provided



                                        19
    hazard information that did not give enough detail to determine needed security

    controls or conduct certification activities. All the NOAA offices we reviewed

    had up-to-date security plans whose content and format were generally consistent

    with NIST guidance and were approved by an IT security officer. However, some

    of the plans provided by NESDIS, NMFS, and NOS had been updated after the

    Department issued a revised password policy but did not comply with that policy.

    Although all NOAA systems we reviewed had current certifications and

    accreditations, only one had evidence of security testing and evaluation. The

    seven NESDIS systems we reviewed were accredited after we requested

    documentation, and the accreditations appear to have been granted in haste.

    Because we found no concrete evidence to indicate that the appropriate steps had

    been taken, including security testing and evaluation, the validity of NESDIS’

    certification and accreditation process is questionable. Since our review, NOAA

    reported that it has implemented the Department’s new password policy and all

    security plans will be updated to reflect this by September 2003.



•   NTIA had conducted risk assessments on the two systems for which we requested

    documentation and provided security plans for both systems. The content and

    format of these plans were generally consistent with NIST guidance, but like ITA

    and BIS, NTIA lacked a formal plan approval process. Neither system had

    undergone security testing and evaluation or certification and accreditation.




                                         20
In this year’s evaluations, we have found systems whose documented sensitivity levels

are understated; their security controls, therefore, are not commensurate with the level of

risk. Similar to last year, security plans were developed without current risk assessments,

and essential information required for selecting appropriate security controls was

missing. Also similar to last year, systems were certified and accredited without testing

of security controls.



When implemented properly, the combination of certification and accreditation is a

powerful method for helping to ensure that effective management, operational, and

technical controls are in place and functioning as intended. Certification actions may be

scaled to the level of IT security being evaluated, but they must be sufficient to confirm

that the security features of the systems have been implemented as intended and are

performing properly, and that the operational sites comply with requirements for

physical, procedural, and communications security. This confirmation cannot be

achieved without some amount of testing. Unless the certification and accreditation

processes are rigorous, the assurances these credentials are intended to impart will be

illusory. It is by confirming the substance and quality of such critical processes and

controls that IGs can play a uniquely valuable role: performance measures focus the

Department on getting the job done; our work helps ensure the job is done right.



The Department recognizes the need for credible IT security processes and products. In

FY 2002, to address this need, it began an IT security compliance program, which

includes quality reviews of certification and accreditation materials for selected systems.




                                            21
This year, the Department plans to review these materials for all national critical, mission

critical, and classified systems. This review program is a positive step. Nonetheless, our

concern remains that aggressive schedules for certification and accreditation may weaken

key processes intended to ensure needed IT security.



How We Perform Our Independent Evaluations


GISRA instructed IGs to perform annual independent evaluations of their agency’s IT

security programs and practices. The evaluation was to include testing the effectiveness

of IT security control techniques for an appropriate subset of the agency’s information

systems. The Federal Information Security Management Act of 2002 (FISMA) similarly

requires IGs to perform an independent evaluation, including testing a representative

subset of the agency’s information systems. OMB Memorandum M-01-08, Guidance on

Implementing the Government Information Security Reform Act, January 16, 2001, stated

that the Act recognizes that not all systems can be reviewed every year and directs IGs to

use a sampling of systems to draw conclusions regarding the effectiveness of the

agency’s overall security program. This guidance also encourages IGs to use reviews

performed by other experts in their evaluations.



We have followed this guidance and found it to be both practical and effective. Our

independent evaluations consist of a mix of reviews:

•     To assess the effectiveness of policy and oversight, we review the IT security

      program policies of the Department and selected operating units.




                                            22
•   To evaluate operational, technical, and management controls of nonfinancial

    systems, we review selected IT systems using NIST’s Security Self-Assessment

    Guide for Information Technology Systems.


•   To evaluate operational, technical, and management controls of financial systems,

    we use the results of the general control reviews of financial systems conducted by

    OIG contractors using GAO’s Federal Information System Controls Audit Manual

    (FISCAM), which also include limited vulnerability assessments.



•   To obtain additional information regarding the responsibilities of the agency head,

    training of personnel with significant IT security responsibilities, and integration of

    IT security into the capital planning and investment control process, we interview

    the CIO and senior IT security officials from the Department and selected

    operating units, and review pertinent documentation, including selected capital

    asset plans.


•   To obtain coverage of additional operating units and systems, we review the risk

    assessment, security plan, security testing and evaluation materials (test procedures

    and results), and certification and accreditation documents for selected systems.


•   To extend our coverage further, our evaluation also includes, when available, the

    results of IT security reviews performed by other parties—typically contractors

    engaged by the operating units—if we determine, in accordance with OMB

    guidance, that they are of sufficient quality, applicability, and independence.




                                          23
Our independent evaluations are conducted by computer scientists and IT security

specialists in our Office of Systems Evaluation, several of whom have security

certifications and are active on interagency working groups addressing such topics as

network security, certification and accreditation, and procurement. But our resources are

very limited: we have about four full-time employees performing this work, not including

our FISCAM staff and contractor resources. With 14 Commerce agencies and operating

units and approximately 600 IT systems, we offer our perspective on the state of IT

security in the Department based on our necessarily selective review. Although we do

not have sufficient resources or time to validate the specific details of the annual IT

security reports submitted by the Department and USPTO, our approach has not only

promoted significant improvements in system and program security throughout the

Department and USPTO, but has also served as a check and balance on their annual

reporting. Our reviews provide objective and independent insight into the state of IT

security Department-wide, and virtually every review we have conducted has prompted a

major overhaul of policy, oversight, or system security management.



Our budget request for FY 2004 includes those resources we believe are essential for our

office to perform further vital oversight tasks. The requested funding level would allow

us to perform vulnerability assessments and penetration testing of some nonfinancial

systems, a compelling mechanism for demonstrating that vulnerabilities exist and

intrusions are possible, and a task that OMB, the General Accounting Office, and we

believe should be conducted by IGs. OMB guidance directs agencies to develop plans of

action and milestones (POA&Ms) to remediate program- and system-level IT security




                                             24
weaknesses and track each deficiency until it is corrected. According to OMB, an IG-

verified, agency-wide POA&M process will be one of three criteria necessary for

agencies to improve their IT security status on the Expanding E-Government Scorecard.

While we can determine whether the Department’s POA&M process is sound, the

funding we have requested will allow us to also validate the implementation of a sample

of the corrective actions contained in the plans. At present, we are able to track the

corrective actions only for deficiencies identified in our financial systems reviews. The

increase also will allow us to conduct much-needed additional IT system and operating

unit security program reviews.



We believe we have focused and leveraged our efforts effectively. We work closely with

the Department CIO to ensure our efforts are complementary and mutually supportive.

We also work with operating unit CIOs and, increasingly, with program officials. I

believe that GISRA established an effective foundation for improving IT security in the

federal government and that FISMA will reinforce this goal. It is a privilege to be able to

contribute to improvements in this area, and we hope to do more as time goes on.



This concludes my statement. A list of the reports that are part of our independent

GISRA evaluations is included as an attachment. Mr. Chairman, I would be happy to

answer any questions you or other members of the subcommittee might have.




                                             25
                                                                        ATTACHMENT


                          U.S. Department of Commerce
                            Office of Inspector General
                           Evaluation and Audit Reports
                        on Information Technology Security

                                       Evaluations
1    Office of the Secretary, Independent Evaluation of the Department's Information Security
     Program Under the Government Information Security Reform Act, OSE-15260,
     September 2002.
2    United States Patent and Trademark Office, Independent Evaluation of USPTO's
     Information Security Program Under the Government Information Security Reform Act,
     OSE-15250, September 2002.
3    National Institute of Standards and Technology, Additional Improvements Needed To
     Strengthen NIST's Information Security Program, OSE-15078, September 2002.
4    United States Patent and Trademark Office, Stronger Management Controls Needed for
     the Patent Application Capture and Review Automated Information System, OSE-14926,
     August 2002.
5    Office of the Secretary, Information Security Requirements Need to Be Included in the
     Department's Information Technology Service Contracts, OSE-14788, May 2002.
6    United States Patent and Trademark Office, Additional Senior Management Attention
     Needed to Strengthen USPTO's Information Security Program, OSE 14846, March 2002.
7    Office of the Secretary, Independent Evaluation of the Department's Information Security
     Program Under the Government Information Security Reform Act, OSE-14384,
     September 2001.
8    Economics and Statistics Administration, Additional Security Measures Needed for
     Advance Retail Sales Economic Indicator, OSE-12754, September 2001.
9    United States Patent and Trademark Office, Independent Evaluation of USPTO's
     Information Security Program Under the Government Information Security Reform Act,
     OSE-14384, September 2001.
10   Office of the Secretary, Program for Designating Positions According to Their Risk and
     Sensitivity Needs to Be Updated and Strengthened, OSE-14486, September 2001.
11   Office of the Chief Information Officer: Use of Internet “Cookies” and “Web Bugs” on
     Commerce Web Sites Raises Privacy and Security Concerns, OSE-14257, April 2001.
12   Office of the Chief Information Officer: Additional Focus Needed on Information
     Technology Security Policy and Oversight, OSE-13573, March 2001
13   Office of the Chief Information Officer: Critical Infrastructure Protection: Early
     Strides Were Made, but Planning and Implementation Have Slowed, OSE-12680, August
     2000.




                                             26
                             Financial Statements Audits
            [These audits are performed annually; listed below are only the audits
                               covering FY 2000 and FY 2001.]
14   U.S. Department of Commerce, Consolidated Financial Statements, Fiscal Year 2001,
     Improvements Needed in the General Controls Associated with the Department’s
     Financial Management Systems, Audit Report No. FSD-14474-2-0001, February 2002.
15   Bureau of the Census, Improvements Needed in the General Controls Associated with
     Census’ Financial Management Systems, Audit Report No. FSD-14473-2-0001,
     February 2002.
16   National Technical Information Service, Improvements Needed in the General Controls
     Associated with NTIS’s Financial Management Systems, FSD-14476-2-0001/February
     2002.
17   National Oceanic and Atmospheric Administration, Improvements Needed in the General
     Controls Associated with Financial Management Systems, FSD-14475-2-0001/February
     2002.
18   Department of Commerce: Consolidated Financial Statements, FY 2000, FSD-12849-1,
     March 2001.
19   National Institute of Standards and Technology, Improvements Needed in the General
     Controls Associated with Financial Management Systems, FSD-12859-1, February 2001.
20   Economic Development Administration, Improvements Needed in the General Controls
     Associated with Financial Management Systems, FSD-12851-1, January 2001.
21   Bureau of the Census, Improvements Needed in the General Controls Associated with
     Financial Management Systems and FY 2000 Penetration Test Results, FSD-12850-1,
     January 2001.
22   National Technical Information Service, Improvements Needed in the General Controls
     Associated with Financial Management Systems, FSD-12857-1, January 2001.
23   Office of the Secretary, Follow-up Review of the General Controls Associated with the
     Office of Computer Services/Financial Accounting and Reporting System, FSD-12852-1,
     January 2001.
24   International Trade Administration, Review of General and Application System Controls
     Associated with the Fiscal Year 2000 Financial Statements, FSD-12854-1, January 2001
25   National Oceanic and Atmospheric Administration, Improvements Needed in the General
     Controls Associated with Financial Management Systems, FSD-12855-1, December
     2000.
26   United States Patent and Trademark Office, Improvements Needed in the General
     Controls Associated with Financial Management Systems, FSD-12858-1, December
     2000.




                                           27
